                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1              April 1 – September 30, 2008
                                                                      AGENCY PROFILE

Chairman Peter C. Schaumber and                In addition to the Headquarters building,
Member Wilma B. Liebman continue to            employees are located in 51 field offices
serve as Board Members. Currently,             throughout the country. Three satellite
there are three vacant seats on the            offices for the administrative law judges
five-Member Board.                             are located in Atlanta, San Francisco,
                                               and New York City. Since October 2,
The NLRB received an appropriation of          2000, field offices have included 32
$256,238,000 for Fiscal Year (FY) 2008,        Regional Offices, 16 Resident Offices,
less a rescission of 1.747 percent,            and 3 Subregional Offices.
leaving a net spending ceiling of
$251,762,000 to fund a ceiling of 1,690        Additional information about the NLRB
full-time equivalents. NLRB                    can be found at www.NLRB.gov.
Headquarters is at 1099 14th Street, NW,
Washington, DC.




NLRB OIG Semiannual Report                 2              April 1 – September 30, 2008
                                   OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                      General for Audits, three auditors, and a
The FY 2008 OIG budget is $1,065,900           staff assistant.
for operations, of which $180,943 is for
contract services. In addition to the          At this time, one auditor position is
Inspector General, the OIG consists of a       vacant and the Counsel is serving as the
Counsel/Assistant Inspector General for        Acting Inspector General.
Investigations, Assistant Inspector




NLRB OIG Semiannual Report                 3                April 1 – September 30, 2008
                                                             AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued one audit
report, three inspection reports, and conducted the annual review required by the
Federal Information Security Management Act.

Reports Issued                                   provide sufficient detail to satisfy the
•   We issued Audit Report                       requirements for internal control.
OIG-AMR-58-08-02, Budget
Submission Case Processing Data, on              The estimates and forecasts provided by
September 3, 2008. We conducted this             the Budget Branch generally
audit to evaluate the process used to            overestimated the anticipated case
develop case intake and related                  intake. From 2000 to 2007 the Agency
employee requirements for annual                 overestimated case intake forecasts by
budget requests and to compare                   6.7 to 29.2 percent. This is significant
forecasted amounts to actual figures.            because these figures are the basis for
                                                 the amount of the appropriation
Case intake figures in the Agency’s              requested by the President.
budget requests were not being prepared
in accordance with the Administrative            The Budget Branch Chief stated that she
Policies and Procedures Manual                   did not agree with our finding that the
(APPM). Also, the Budget Branch did              case intake calculation process lacked
not create and therefore did not maintain        internal control as the numbers are
the documentation for this activity as           reviewed by senior management before
required by the Agency's Records                 submission to the Office of Management
Disposition Standards.                           and Budget (OMB). Despite this
                                                 difference in opinion, the Budget Branch
We also found that as drafted, the               Chief agreed with our recommendations
Budget Chapter in the APPM did not               to document the procedures in an




NLRB OIG Semiannual Report                   4               April 1 – September 30, 2008
                                                                         AUDIT PROGRAM

upcoming revision to the APPM for this         administrative leave was not provided to
process and to maintain the supporting         employees in a uniform manner.
documentation.                                 Additionally, NLRB identification cards
                                               that purport to be contractual staff
•   We issued Inspection Report                credentials were issued to Credit Union
OIG-INS-54-08-02, NLRB Credit                  employees and volunteers. We were
Union, on May 6, 2008. We conducted            concerned with this practice because the
this inspection to evaluate the                credentials compromise security as they
appropriateness of support provided to         are equivalent to a Federal identification
the National Labor Relations Board             that could potentially provide access to
Credit Union (Credit Union) by the             other Federal buildings. We noted other
Agency.                                        non-Federal entities located in the
                                               Franklin Court Building have been
In calendar year 2007, we estimated that       issued building passes.
the Agency provided $88,778 in support
of the Credit Union. We found that             •   We issued Inspection Report
when providing support to the Credit           OIG-INS-55-08-03, Cost Analysis of
Union, the Agency has not requested and        Serving Decisions and Orders, on
the Credit Union has not provided              May 16, 2008. We initiated this
documentation to demonstrate that the          inspection to determine whether there
Credit Union met the statutory                 are savings to be had by officially
requirement for receiving support from         serving Board and administrative law
the Agency.                                    judge decisions and orders
                                               electronically, rather than by mailing
We also found time and attendance for          paper copies.
Agency employees who use official time
for Credit Union activities was not            We estimated that the Agency spent
always accurately recorded and that            approximately $10,746 to serve 268



NLRB OIG Semiannual Report                 5               April 1 – September 30, 2008
                                                                          AUDIT PROGRAM

Board and 199 administrative law judge           Agency could then consider ways to
decisions and orders in FY 2007. The             reduce the operational costs of the Copy
Office of the Chief Information Officer          Center and also save the associated
(OCIO) estimated that it would cost              paper cost of more than $5,000.
approximately $6,000 to create the
means to serve decisions and orders              We noted that serving decisions and
electronically for the remainder of FY           orders electronically is consistent with
2008. The OCIO estimated that the                Federal law requiring the Agency to
yearly ongoing costs would be                    promote the use of information
approximately $8,000.                            technology to improve the productivity,
                                                 efficiency, and effectiveness of its
We also identified indirect savings could        programs, including the dissemination of
be had. More than half of the usage for          public information.
the two copy machines in the Copy
Center can be allocated to reproducing           •   We issued Inspection Report
decisions and orders for internal                OIG-INS-53-08-04, Bilingual Awards,
distribution. In FY 2007, the Copy               on June 13, 2008. We initiated this
Center made approximately 2.8 million            inspection in January 2008 to determine
copies. Of those copies, 1.76 million            whether bilingual award recipients met
were for the 303 copies of each Board            the requirements for using two
decision and order and 123 copies of             languages as part of his or her job.
each administrative law judge decision
and order. Only 126,549 copies were              We found that in FY 2007, the bilingual
necessary to serve the parties. If the           award recipients used at least two
Agency ceased reproducing copies for             languages as part of his or her job and
internal distribution, it could reduce the       that the total amount of awards made
copies made each year by approximately           each year and the individual employee’s
1.64 million. With that reduction, the           share were in accordance with the



NLRB OIG Semiannual Report                   6               April 1 – September 30, 2008
                                                                       AUDIT PROGRAM

collective bargaining agreements. We           primarily accomplished as part of the
also found that the bilingual awards           audit of the FY 2008 financial
program was not administered                   statements. On September 30, 2008, the
consistently among the Regional                Chairman submitted reports from the
Offices.                                       Inspector General and the Chief
                                               Information Officer to OMB.
A comparison of bilingual awards
nominations to reports from the                Audit Follow-up
Agency’s payroll system identified             Agreed upon actions were not completed
several payment errors related to the FY       within 1 year on four audit reports. Two
2006 bilingual awards. These include           of those reports are now closed.
three employees who were nominated
for bilingual awards and did not receive       •   Non-Standard Work Hours
the awards and two employees were              Compensation, OIG-AMR-47-05-04,
nominated for an award, but were paid          was issued on August 9, 2005, and we
for an award at a different level. In          reached agreement with management on
another instance, an employee                  that date. Action has been completed on
apparently received an award intended          the final open recommendations. We
for another employee. The two                  closed this audit report on August 18,
employees have the same last name and          2008.
first initial.
                                               •   Procurement Actions, OIG-AMR-
•   The Federal Information Security           52-07-02, was issued on March 26,
Management Act of 2002 requires                2007, and we reached agreement with
Inspectors General to conduct annual           management on July 31, 2007. Action
reviews of information security                has been completed on the final agreed
programs. The OIG review was                   upon open recommendations. We closed
                                               this audit report on August 28, 2008.



NLRB OIG Semiannual Report                 7              April 1 – September 30, 2008
                                                                 AUDIT PROGRAM

•   Audit of the NLRB Fiscal Year          •   Continuity of Operations, OIG-
2006 Financial Statements, OIG-F-11-       AMR-55-07-03, was issued on
07-01, was issued on December 14,          September 18, 2007, and we reached
2006, and we reached agreement with        agreement with management on that
management on June 14, 2007.               date. Action has been completed on one
Management has completed actions           of the three recommendations. The
on four of the five recommendation         Agency is actively working to
made in the audit.                         implement the other two
                                           recommendations.




NLRB OIG Semiannual Report             8              April 1 – September 30, 2008
                                              INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 112 contacts, initiated 6 cases, and closed 10 cases. The investigations
resulted in three resignations, three referrals to the Department of Justice, three arrests,
and one conviction.


                        Case Workload                  Contacts Processed

                  Open (4/1/2008)        14       Received                  112

                  Initiated               6       Initiated Investigation     1

                  Closed                 10       Opened Case --              0
                                                  Referred to Agency
                  Open (9/30/2008)       10       Non-Investigative         111
                                                  Disposition


•   Fraud. As previously reported, the             second employee resigned during this
OIG initiated an investigation of an               reporting period in lieu of a removal
employee who was suspected of creating             action.
fraudulent leave and earnings statements
for a third party who submitted them               Because the misconduct involved state
with an application for low income                 welfare benefits, we also provided our
housing benefits. The U.S. Attorney’s              investigative results to the state
Office declined prosecution. We then               prosecutor’s office. During this reporting
continued our investigation and found              period, both employees were arrested on
the employee and other individuals,                felony charges involving fraud and
including another employee, used the               perjury. One was then convicted and
fraudulent leave and earnings statements           received 4 days confinement, 250 hours
to receive state welfare benefits. The             of community service, 5 years probation,
employee that was initially involved in            and was ordered to pay $11,070 in
the investigation resigned before we               restitution. The other employee is
issued our investigative report. The               pending trial. (OIG-I-412)




NLRB OIG Semiannual Report                    9                   April 1 – September 30, 2008
                                                               INVESTIGATIONS PROGRAM

•   Threats to a Board Agent. The                 time to engage in activity related to
OIG initiated an investigation after a            personal financial investments and
Board Agent received a threat from an             outside business activities. When
employer. After we referred this matter           interviewed, the contract employee
to the appropriate U.S. Attorney’s                acknowledged that he was idle
Office, the Federal Bureau of                     approximately 50 percent of the time.
Investigation (FBI) took the lead on this         We issued an interim report to Agency
matter. The employer then made                    managers so that they may attempt to
additional threats to employees at the            resolve this matter with the contractor.
NLRB Headquarters. Thereafter, we                 During this reporting period, the Agency
worked jointly with the FBI to obtain             decided not to exercise an option for
evidence that substantiated the                   continued services from the contractor.
employer’s criminal activity. During              By doing so, the Agency will be able to
this reporting period, the subject was            put approximately $190,000 to better
indicted on charges related to her threats        use. (OIG-I-413)
to kill NLRB employees. The employer
is currently in a Federal confinement             •   Time and Attendance Abuse. The
facility awaiting trial. (OIG-I-417)              OIG initiated an investigation of an
                                                  employee who was absent from his place
•   Contractor Internet Misuse. The               of duty without leave and then provided
OIG initiated an investigation of contract        false information to his supervisor when
personnel for misusing the Agency's               he was questioned about the absence.
Internet access. During the course of a           When interviewed by the OIG, the
routine review of the Agency's Internet           subject admitted to being absent without
firewall logs, we found evidence that the         leave on the day in question, as well as
contractor’s employee was using the               other absences without leave. After we
Agency's Internet access and official             issued the investigative report, Agency




NLRB OIG Semiannual Report                   10               April 1 – September 30, 2008
                                                                INVESTIGATIONS PROGRAM

managers initiated a removal action.              Agency managers are currently
Thereafter, the subject resigned.                 considering disciplinary action.
(OIG-I-421).                                      (OIG-I-425)


•   Assault by an Employee. The                   Hotline
OIG received information that, without            Employees and members of the public
provocation, an employee initiated an             with information on fraud, waste, and
altercation with a fellow employee. We            abuse are encouraged to contact OIG. A
initiated an investigation and                    log of calls to a nationwide toll free
coordinated our investigative efforts             number or the office numbers and a log
with the Federal Protective Service. We           of mail, e-mail, and facsimile messages
found that the employee assaulted the             are maintained. All information
fellow staff member for no apparent               received, regardless of the method used,
reason. After we issued our                       is referred to as Hotline contacts.
investigative report, the employee
agreed to resign in lieu of a removal             The information received over the
action. (OIG-I-423)                               hotline is the basis for the initial review
                                                  for potential investigations. The
•   Transit Subsidy Fraud and                     information is analyzed to determine if
Misleading Statement. The OIG                     further inquiry is warranted. Most
initiated an investigation of an employee         Hotline contacts are calls from members
who was suspected of driving to work              of the public seeking help on an
while receiving the transit subsidy. Our          employment related problem or issues
investigation substantiated the allegation        outside OIG and/or Agency jurisdiction.
and also that employee provided
misleading information regarding her              As appropriate, OIG refers these callers
use of the transit subsidy. The U.S.              to the Regional Office; local, state, or
Attorney’s Office declined prosecution.



NLRB OIG Semiannual Report                   11               April 1 – September 30, 2008
                                                             INVESTIGATIONS PROGRAM

Federal agency; or private resource to        Hotline contacts, of which 56 were
provide assistance. During this               telephone calls or walk-ins and 56 were
reporting period, OIG received 112            in writing.




NLRB OIG Semiannual Report               12                 April 1 – September 30, 2008
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed three pieces of legislation.

Legislation                                        General obtain legal advice from a
We reviewed the following legislation              counsel either reporting directly to the
and provided input when appropriate.               Inspector General or another Inspector
                                                   General. It establishes within the
•   Pub. L. No. 110-409,                           executive branch the Council of the
Inspector General Reform Act of                    Inspectors General on Integrity and
2008. The amendments to the Inspector              Efficiency and an Integrity Committee
General Act of 1978 require each                   for the Council to review and refer for
Inspector General to be appointed                  investigation allegations that are made
without regard to political affiliation and        against Inspectors General and certain
solely on the basis of integrity and               staff. The amendments require
demonstrated ability in accounting,                transmission of the Office of Inspector
auditing, financial analysis, law,                 General budget requests to the Office of
management analysis, public                        Management and Budget and Congress.
administration, or investigations. It              The amendments also require that an
requires the head of a designated Federal          OIG maintain a Web page with a direct
entity to communicate to Congress in               link to reports and a means for the
advance the reasons for removing or                submission of anonymous reports of
transferring an Inspector General. It sets         fraud, waste, or abuse.
forth a basis for determining the annual
rate of basic pay for Inspectors General           •   Pub. L. No. 110-323, Government
at the designated Federal entities and             Accountability Office Act of 2008.
prohibits an Inspector General from                This law created an Office of Inspector
receiving cash awards or bonuses. The              General at the Government
amendments require that Inspectors                 Accountability Office (GAO). The law


NLRB OIG Semiannual Report                    13               April 1 – September 30, 2008
                                                  LEGISLATION, REGULATIONS, AND POLICY

also allows GAO to audit an Agency’s               proceeding only if the waiver is
financial statement for a fiscal year              intentional; the disclosed and
beginning on or after October 1, 2009, if          undisclosed communications or
the Agency requests the audit, with the            information concern the same subject
concurrence of the Inspector General of            matter; and they ought in fairness to be
such agency. It also allows GAO to be              considered together. The amendment
reimbursed for the costs of such audit.            states that, when the disclosure is made
The Agency, Inspector General, and                 in a Federal proceeding or to a Federal
GAO shall consult prior to the initiation          office or agency, it does not operate as a
of the audit on the scope, terms, and cost         waiver in a Federal or state proceeding if
of such audit.                                     the disclosure is inadvertent; the holder
                                                   of the privilege or protection took
•   Pub. L. No. 110-322, Amendment                 reasonable steps to prevent disclosure;
to the Federal Rules of Evidence. This             and the holder promptly took reasonable
law amends the Federal Rules of                    steps to rectify the error. Additional
Evidence with respect to the disclosure            requirements apply to disclosures made
of a communication or information                  in state proceedings.
covered by the attorney-client privilege
and work product protection. It provides           Regulations
that, when a disclosure that waives the            The Counsel to the Inspector General is
attorney-client privilege or work product          an advisory member of the Agency's
protection is made to a Federal office or          Rules Revision Committee that develops
agency, the waiver extends to an                   changes to the Agency's procedural
undisclosed communication or                       regulations.
information in a Federal or state




NLRB OIG Semiannual Report                   14               April 1 – September 30, 2008
                                                       LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                     Group, and the Chief Financial Officers
The Inspector General is a member of            Council A-136 Subcommittee.
the Executive Council on Integrity and
Efficiency, which consists primarily of         The Counsel participated in the Council
the inspectors general at the designated        of Counsels to Inspectors General. The
Federal entities in the IG Act. The             Counsel also participated in the
Inspector General also participates in          Interagency Investigative Data Mining
activities sponsored by the President's         Working Group.
Council on Integrity and Efficiency,
which consists primarily of the                 Government Accountability Office
Presidentially-appointed inspectors             The IG Act states that each inspector
general.                                        general shall give particular regard to the
                                                activities of the Comptroller General of
The Assistant Inspector General for             the United States, as head of GAO, with
Audits, or designated auditors,                 a view toward avoiding duplication and
participated in the Federal Audit               ensuring effective coordination and
Executives Council, Financial Statement         cooperation. We had no activity during
Audit Network, the Interagency                  this reporting period that required
Investigative Data Mining Working               coordination with GAO.




NLRB OIG Semiannual Report                 15               April 1 – September 30, 2008
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                        that were described in the previous semiannual reports.

(4)             Three cases were referred to prosecutorial authorities. There were three
                prosecutions and one conviction.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 17.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs or that identified funds that could be put to better use. See Table 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      16                   April 1 – September 30, 2008
                         AUDIT REPORTS BY SUBJECT MATTER

                                                                     Funds To
                             Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number       Costs          Costs        Costs      Better Use

ADMINISTRATION

Budget Submission Case
Processing Data
OIG-AMR-58-08-02                 0             0            0            0




NLRB OIG Semiannual Report           17            April 1 – September 30, 2008
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    18       April 1 – September 30, 2008
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   19         April 1 – September 30, 2008
Every employee is the
guardian of integrity                                    .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   20   April 1 – September 30, 2008
